CERTIFICATE OF SERVICE
No. 19Airbus Helicopters, Inc.,
Petitioner,
v.
Mary Riggs, et al.,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this twentieth day of March,
2020, I caused three copies and an electronic copy of the Petition for a Writ of
Certiorari in the foregoing case to be served by first class mail, postage prepaid, and
by email, on the following parties:
GARY C. ROBB
ANITA PORTE ROBB
ROBB & ROBB LLC
One Kansas City Place
1200 Main Street, Suite 3900
Kansas City, MO 64105
(816) 474-8080
gcr@robbrobb.com
apr@robbrobb.com

WILLIAM J. KATT
WILSON ELSER MOSKOWITZ EDELMAN
& DICKER, LLP
740 N. Plankinton Avenue, Suite 600
Milwaukee, WI 53203
(414) 276-8816
william.katt@wilsonelser.com

PATRICK J. KEARNS
WILSON ELSER MOSKOWITZ EDELMAN
Attorneys for Respondents Mary
& DICKER, LLP
Riggs as Personal Representative of 401 West A Street, Suite 1900
the Estate of Jonathan Neil Udall San Diego, CA 92101
and Philip and Marlene Udall
(619) 321-6200
patrick.kearns@wilsonelser.com
Attorneys for Respondents Matthew Hecker,
Daniel Friedman, Brenda Halvorson,
Geoffrey Edlund, Elling B. Halvorson,
John Becker, Elling Kent Halvorson, Lon
A. Halvorson, Papillon Airways, Inc.,
d/b/a Papillon Grand Canyon Helicopters,
Xebec LLC, and Scott Booth
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

